  Additional Information and Copies

  The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of
  the Assistant Inspector General for Inspections and Policy of the Department of
  Defense, prepared this report. If you have questions or would like to obtain
  additional copies of the draft report, contact Mr. Wayne C. Berry at (703) 604-8789
  (DSN 664-8789) or Ms. Diane H. Stetler at (703) 604-8737 (DSN 664-8737).

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

CAM                  DCAA Manual 7640.1, “DCAA Contract Audit Manual”
DCAA                 Defense Contract Audit Agency
ESC                  Executive Steering Committee
FAO                  Field Audit Office
GAS                  Government Auditing Standards
MFR                  Memorandum for Record
MRD                  Memorandum for Regional Directors
PCIE                 President’s Council on Integrity and Efficiency
RQA                  Regional Quality Assurance Division
         Office of the Inspector General of the Department of Defense
Report No. D-2003-6-003                                              December 20, 2002
  (Project No. D2002OA-0105)

             Defense Contract Audit Agency Quality Assurance
                      Review of Incurred Cost Audits

                                Executive Summary

Who Should Read This Report and Why? The Under Secretary of Defense
(Comptroller)/Chief Financial Officer and the Defense Contract Audit Agency (DCAA)
Executive Steering Committee should read this report. The report discusses the status of
the DCAA quality assurance program and the quality assurance review of incurred cost
audits.

Background. This is the third in a series of reports on the DCAA headquarters-led
quality assurance program. DCAA selected incurred cost, one of four categories of
audits, as the third category to be covered by the DCAA headquarters-led quality
assurance reviews. For FY 2001, DCAA completed 42,657 assignments, valued at
$218.4 billion, with net savings of $3.2 billion. DCAA incurred $383.2 million in total
operating costs to provide the audit services.

Results. When planning the quality assurance review of incurred cost audits, DCAA
developed and implemented a reasonable methodology for selecting both the field audit
offices and the annual incurred cost audit summary assignments for review. However,
DCAA did not adequately plan or document the scope of review for individual incurred
cost audit summary assignments. Specifically, DCAA did not establish specific criteria
for selecting subactivity assignments for review or adequately document the subactivity
assignments actually reviewed. In addition, DCAA prepared the final report before
completing the summary working papers. As a result, the final report presented to the
Executive Steering Committee did not fully disclose the scope of the review or
adequately summarize the final results. Based on a draft of this report, DCAA
determined that the final report on a headquarters-led quality assurance review would be
a briefing provided to the Inspector General of the Department of Defense.

DCAA should fully document the scope of review of all quality assurance reviews and
complete all work before providing the final report to the Inspector General of the
Department of Defense.

Management Comments. DCAA concurred with both of the recommendations.
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   3

Findings
     A. Scope of Quality Assurance Review of Incurred Cost Audits           4

Appendixes
     A. Scope and Methodology                                               12
          Prior Coverage                                                    14
     B. Structure of Defense Contract Audit Agency Quality Assurance
          Program and Quality Control System                                15
     C. Results of Defense Contract Audit Agency Quality Assurance Review
        of Incurred Cost Audits                                             23
     D. Report Distribution                                                 26

Management Comments
     Defense Contract Audit Agency                                          27
Background
            This is the third in a series of reports on the Defense Contract Audit Agency
            (DCAA) headquarters-led quality assurance program. The “Government
            Auditing Standards” (GAS), issued by the Comptroller General of the United
            States, requires that each audit organization have an appropriate quality control
            system and undergo an independent external quality control review at least once
            every 3 years. The objective of an external quality control review is to determine
            whether the organization’s internal quality control system is properly
            implemented and operating effectively to provide reasonable assurance that
            established policies, procedures, and auditing standards are being followed.

            President’s Council on Integrity and Efficiency. The President’s Council on
            Integrity and Efficiency (PCIE) was established to identify, review, and discuss
            areas of weakness and vulnerability in Federal programs and operations; to
            develop plans for coordinated, Government-wide activities that address those
            issues; and to promote economy and efficiency in Federal programs and
            operations. As part of that mandate, the PCIE developed the “Guide for
            Conducting External Quality Control Reviews of the Audit Operations of Offices
            of Inspector General” (PCIE Guide), January 2002, as a tool to promote
            consistency in conducting quality control reviews in accordance with GAS. The
            PCIE Guide is advisory and is not intended to replace a reviewer’s professional
            judgment regarding the approach or scope of a review. The PCIE Guide includes
            a variety of checklists that organizations can use as tools when conducting quality
            control reviews.

            DCAA Organization and Functions. DoD Directive 5105.36, “Defense
            Contract Audit Agency,” June 9, 1965,1 establishes DCAA as a separate
            organization under the direction, authority, and control of the Under Secretary of
            Defense (Comptroller)/Chief Financial Officer. The primary mission of DCAA is
            to perform contract audits for DoD. In addition, DCAA is responsible for
            providing accounting and financial advisory services regarding contracts and
            subcontracts to DoD Components that perform procurement and contract
            administration duties. Also, DCAA provides contract audit services for non-DoD
            Federal organizations on a reimbursable basis. For FY 2001, DCAA completed
            42,657 assignments, valued at $218.4 billion,2 with net savings of $3.2 billion.
            DCAA incurred $383.2 million in total operating costs to provide the audit
            services. DCAA audit guidance is contained in the DCAA Manual 7640.1,
            “DCAA Contract Audit Manual” (CAM).3 Specifically, CAM section 2-101
            states that GAS is applicable to DCAA. DCAA ensures compliance with the
            applicable auditing standards throughout audit planning and performance
            activities by supplementing audit guidance in the CAM with standard audit
            programs and internal control matrixes. Between CAM updates, DCAA


1
    DoD Directive 5105.36 was last updated on February 28, 2002.
2
    This amount represents dollars that DCAA examined or reviewed for forward pricing assignments,
     incurred cost audits, and special audits (for example, terminations, claims, and Government facility
     rentals).
3
    DCAA Manual 7640.1 is updated every 6 months. As of October 2002, the current version is July 2002.



                                                        1
            headquarters notifies managers of new and revised audit guidance by issuing
            Memorandums for Regional Directors (MRDs) that are usually incorporated in
            the next CAM update. DCAA has a quality control system that is implemented at
            all levels of the organization. Appendix B describes the structure of the DCAA
            quality control system.

            Incurred Cost Audits. DCAA initiated the quality assurance review of FY 2000
            incurred cost audits, its third headquarters-led quality assurance review, in
            November 2000. In FY 2000, DCAA issued 31,580 reports, of which
            3,538 (11.2 percent) were incurred cost audit reports. In addition, DCAA auditors
            expended a total of 791,000 hours performing incurred cost audits. DCAA
            performs incurred cost audits to determine whether a contractor’s claimed costs
            are reasonable, allocable, and allowable in accordance with applicable laws,
            regulations, and contracts. DCAA performs incurred cost audits at major
            contractors4 as well as at nonmajor contractors.5 DCAA establishes one overall
            assignment called an annual incurred cost audit summary assignment for each
            applicable contractor fiscal year. The assignment is used to record the total
            annual dollar volume for the applicable contractor fiscal year, dollars examined
            during each Government fiscal year, questioned costs, and audit status. An
            annual incurred cost audit summary assignment remains open until the overall
            incurred cost audit report for that contractor fiscal year is issued. To complete an
            annual incurred cost audit summary assignment, DCAA has authorized the field
            audit offices (FAOs)6 to either perform all of the needed audit work under the
            summary assignment or to establish as many subactivity assignments as necessary
            to audit the contractor’s final incurred cost submission.

            Results of DCAA Quality Assurance Review of Incurred Cost Audits and
            Inspector General of the Department of Defense Retesting. The DCAA
            quality assurance review of incurred cost audits identified significant
            noncompliances with GAS for which DCAA has either implemented or initiated
            corrective action. Specifically, DCAA identified issues related to due
            professional care, planning, supervision, evidence, compliance with laws and
            regulations, and reporting. We conducted independent testing at two FAOs and
            concluded that the same type of systemic noncompliances did exist and that the
            DCAA results were valid. In addition, our independent review did not identify
            any systemic issues not previously identified by DCAA. Resolving the issues that
            DCAA identified are important to ensure that quality audits are performed in
            accordance with GAS and that quality audit reports are issued. See Appendix C
            for a discussion of the significant noncompliances and the corrective actions that
            DCAA implemented or initiated.




4
    A major contractor is a contractor where DCAA has contractor costs of $80 million or more to audit in
    one fiscal year.
5
    A nonmajor contractor is a contractor where DCAA has contractor costs of less than $80 million to audit
    in one fiscal year.
6
    An FAO can be either a resident office or a branch office. A resident office is established at a contractor’s
    facility whenever the amount of audit work justifies the assignment of a permanent staff of auditors and
    support elements. A branch office is not located in a contractor’s facility and its auditors perform work at
    multiple contractors.



                                                         2
Objectives
    The objective for this oversight review was to review the status of the DCAA
    quality assurance program and to assess how DCAA performed the quality
    assurance review of incurred cost audits. Subsequent oversight reviews will
    assess how DCAA performs quality assurance reviews of all other audits. We
    will make an overall determination as to whether the DCAA quality control
    system as a whole provides reasonable assurance that established policies,
    procedures, and applicable auditing standards are being followed after completing
    our external quality control review. See Appendix A for a discussion of the
    scope, methodology, and prior coverage.




                                        3
                     Scope of Quality Assurance Review of
                     Incurred Cost Audits
                     When planning the quality assurance review of incurred cost audits,
                     DCAA developed and implemented a reasonable methodology for
                     selecting both the FAOs and the annual incurred cost audit summary
                     assignments for review. However, DCAA did not adequately plan or
                     document the scope of review for individual incurred cost audit summary
                     assignments. Specifically, DCAA did not establish specific criteria for
                     selecting subactivity assignments for review or adequately document the
                     subactivity assignments actually reviewed. In addition, DCAA prepared
                     the final report7 before completing the summary working papers.8 As a
                     result, the final report did not fully disclose the scope of the review or
                     adequately summarize the final results.


Selection of FAOs and Annual Incurred Cost Audit Summary
  Assignments
            For the internal quality assurance review of incurred cost audits, DCAA
            developed a two-tier methodology for selecting which FAOs and audits to review.
            First, DCAA selected FAOs to visit based on the number of hours expended on
            incurred cost audit work at major and nonmajor contractors. Once FAOs were
            selected, DCAA selected the annual incurred cost audit summary assignments to
            be reviewed.

            Selection of FAOs. DCAA selected 28 FAOs to review12 FAOs auditing
            major contractors, 12 FAOs auditing nonmajor contractors, and 4 FAOs auditing
            corporate or home offices.9 DCAA developed a reasonable methodology to
            judgmentally select the FAOs for review. However, DCAA eliminated two FAOs
            auditing corporate or home offices from the review due to time constraints. As a
            result, DCAA reviewed a total of 26 FAOs. The 26 FAOs represented
            32.9 percent of the universe of 79 FAOs in existence as of June 2002.
            Selection of Annual Incurred Cost Audit Summary Assignments. DCAA
            initially selected 100 annual incurred cost audit summary assignments for
            review4 assignments performed at corporate or home offices, 36 assignments
            performed at major contractors, and 60 assignments performed at nonmajor
            contractors. DCAA developed a reasonable methodology that they used to
            judgmentally select the assignments for review at each FAO. If the FAO did not
            have a sufficient number of audits with reports issued in FY 2000, then DCAA


7
    DCAA prepares the final report in the form of Microsoft PowerPoint slides and makes an oral presentation
    to the Executive Steering Committee.
8
    The summary working papers are the Memorandums for Record that DCAA prepares for each FAO.
9
    A corporate or home office is the general corporate or divisional headquarters responsible for the
    management of business carried out at various plants, branches, divisions, or subsidiaries of the
    organization.



                                                        4
            selected audits with reports issued in FY 2001 using the same criteria. Audits
            described as Office of Management and Budget Circular No. A-133 audits10 were
            excluded from selection because we separately perform quality control reviews on
            these audits. In addition, DCAA developed a methodology for substituting audits
            at FAOs in case any of the originally selected audits proved to be inappropriate
            for review. DCAA actually reviewed 97 annual incurred cost audit summary
            assignments—3 audits performed at corporate or home offices, 34 audits
            performed at major contractors, and 60 audits performed at nonmajor contractors.

            DCAA developed and implemented a reasonable methodology for selecting FAOs
            and annual incurred cost audit summary assignments to be reviewed. However,
            DCAA did not develop and document an objective methodology for selecting
            subactivity assignments to be reviewed.


Planning for and Documenting Review of Subactivity
  Assignments
            When planning the quality assurance review of incurred cost audits, DCAA did
            not adequately plan the scope of review for individual incurred cost audit
            summary assignments. In addition, DCAA did not consistently document which
            subactivity assignments they had reviewed.

            Selecting Subsidiary Assignments for Review. DCAA did not establish specific
            criteria for selecting subactivity assignments for review. When planning and
            performing an incurred cost audit, DCAA supervisory auditors establish as many
            or as few subactivity assignments as needed to audit a contractor’s final incurred
            cost submission. For example, an FAO established 2 subactivity assignments for
            an annual incurred cost audit summary assignment examining $631 million of
            incurred costs while another FAO established 27 subactivity assignments for an
            annual incurred cost audit summary assignment examining $450 million of
            incurred costs. When subactivity assignments are used, auditors may perform a
            significant amount of audit work under the subactivity assignments. For example,
            the FAO that established the 27 subactivity assignments expended 3,094 hours to
            complete the 27 subactivity assignments and only 242 hours to complete the
            annual incurred cost summary assignment. Therefore, the work performed under
            the subactivity assignments is critical to the overall results of an incurred cost
            audit.

            When planning for the quality assurance review of incurred cost audits, DCAA
            provided the following guidance for selecting subactivity assignments for review
            on the Supplemental Checklist.11



10
     Office of Management and Budget Circular No. A-133, “Audits of States, Local Governments, and
     Non-Profit Organizations,” June 24, 1997, are audits of State and local governments and nonprofit
     organizations, including educational institutions and hospitals.
11
     DCAA developed the Supplemental Checklist to gather information on quality control and audit
     planning; use of automated working papers; and the testing of certain types of costs, such as pensions.



                                                        5
           In answering the PCIE-based checklist [DCAA Checklist] questions,
           the QA [quality assurance] reviewers assume the responsibility for
           covering any subsidiary workpackages, as well as the summary
           assignment. The extent to which the subsidiary audit work (if any)
           needs to be specifically evaluated is a matter of reviewer judgment.

Essentially, DCAA left it up to the discretion of the reviewers as to how many
subactivity assignments they needed to review and in what detail because DCAA
determined that subactivity assignments were working papers packages that were
part of the annual incurred cost audit summary assignments and not individual
stand-alone audit assignments. However, DCAA did not require the reviewers to
document which subactivity assignments they selected for review or the basis for
making the selections.

Documenting Subsidiary Assignments Reviewed. DCAA did not adequately
document the subactivity assignments reviewed. In general, supervisory auditors
established subactivity assignments for annual incurred cost audit summary
assignments of major contractors or corporate or home offices. DCAA reviewed
37 annual incurred cost audit summary assignments at 14 FAOs auditing major
contractors or corporate or home offices. The FAOs established 521 subactivity
assignments for 34 of the 37 assignments. The FAOs did not establish subactivity
assignments for the other three assignments. Of the 104,155 hours that DCAA
expended to complete the 34 incurred cost audits, DCAA expended 94,819 hours
(91 percent) performing work on the 521 subactivity assignments and only
9,336 hours (9 percent) performing work on the 34 annual incurred cost audit
summary assignments. DCAA did not identify which of the 521 subactivity
assignments they reviewed in the quality assurance working paper files, including
the Memorandum for Record (MFR). When asked which subactivity assignments
were reviewed, DCAA headquarters Quality Assurance Division personnel stated
that the reviewers:
           assumed responsibility for covering all of the applicable, significant
           working papers that supported the auditor’s reported findings and
           conclusions. . . . we followed the guidelines generally set-up for the
           incurred cost round of PCIE-based reviews and considered all of the
           subsidiary assignment working papers in our review of individual
           incurred cost audits.

However, based on that response and the review documentation, we were unable
to independently determine whether the DCAA reviewers considered all
subactivity assignments when answering questions on the DCAA Checklist.
Therefore, to try to determine which subactivity assignments were reviewed, we
requested information from reviewers for 12 annual incurred cost audit summary
assignments with 204 subactivity assignments. According to the reviewers, they
reviewed 93 (45.6 percent) of the 204 subactivity assignments.

DCAA considered the subactivity assignments to be part of the annual incurred
cost audit summary assignments, not separate audits that must be performed in
compliance with GAS. DCAA stated that the DCAA reviewers now document
the basis for “no” answers on the DCAA Checklist as well as the basis for most of
the “yes” answers. DCAA maintains that the answers on the DCAA Checklist
provide sufficient documentation as to which working papers were covered and


                                        6
     that additional information is neither required by the PCIE Guide nor necessary.
     However, the PCIE Guide requires internal quality assurance reviewers to gather
     competent evidence and to conduct sufficient testing to determine whether the
     organization is complying with applicable auditing standards, policies, and
     procedures. Therefore, the issue is not whether DCAA adequately documented
     the answers on the DCAA Checklist; rather, the issue is whether DCAA gathered
     competent evidence and conducted sufficient testing to support the findings and
     conclusions.

     Necessity for Identifying Subactivity Assignments Included in Quality
     Assurance Review. The review of subactivity assignments highlighted a scope
     issue that could exist when reviewing other DCAA audits with a voluminous
     number of working papers. For instance, one FAO elected to perform all incurred
     cost audit work for 1 fiscal year under one annual incurred cost audit summary
     instead of establishing multiple subactivity assignments. The overall assignment
     contained 34 working paper sections. Unless a reviewer identifies which working
     paper sections were reviewed, an external reviewer would not be able to properly
     retest the assignment or to place maximum reliance on the work. Therefore, for
     audits with a large number of subactivity assignments or voluminous working
     papers, it is imperative that DCAA specifically identify which subactivity
     assignments or working paper sections they based their conclusions on or which
     subactivity assignments or working paper sections they specifically excluded
     from review. Otherwise, an external reviewer assumes that the internal quality
     assurance reviewer examined all audit documentation. An external reviewer can
     consider the extent of working paper review when retesting the work. If
     significant differences are identified during retesting, then the issue becomes
     whether conclusions drawn by testing only a portion of the audit documentation
     are accurate. However, if significantly different conclusions are reached and the
     internal quality assurance reviewer did not identify the audit documentation
     specifically excluded from review, then the external reviewer may determine that
     the internal quality assurance reviewer’s conclusions are incorrect.

     DCAA has structured the internal quality assurance reviews using the PCIE
     Guide procedures for an external quality assurance review as much as possible so
     that organizations conducting external peer reviews of DCAA can place
     maximum reliance on the DCAA internal quality assurance program. Unless
     DCAA documents which subactivity assignments they included in the quality
     assurance review, properly retesting the work or placing maximum reliance on the
     work will be difficult for an external reviewer. Without knowing the scope of the
     DCAA work, retesting could lead an external reviewer to draw substantially
     different conclusions and, thereby, erroneously determine that the DCAA quality
     assurance work could not be relied on.


Presentation of Final Report
     The final report that DCAA presented to the Executive Steering Committee (ESC)
     adequately identified significant noncompliances with GAS for which DCAA has
     either implemented or initiated corrective action (Appendix C). However, as
     discussed above, DCAA did not adequately describe the scope of review of



                                         7
individual audits to the ESC. In addition, DCAA prepared the final report before
completing the summary working papers. As a result, the final report did not
adequately summarize the final results of the review.

Results Reported to the ESC. DCAA presented the final report to the ESC
before completing the quality assurance review work. In September 2001, DCAA
prepared and presented a briefing to the ESC that summarized the results of the
review along with proposed corrective actions. DCAA considered the
September 2001 briefing to be the final report on the quality assurance review of
incurred cost audits. DCAA prepared the briefing based on the results of the
97 annual incurred cost audit summary assignments. The PCIE Guide
recommends that internal quality assurance reviewers gather competent evidential
matter and conduct sufficient testing to determine whether the organization is in
compliance with applicable auditing standards, policies, and procedures and that a
written report that summarizes the results be prepared. Determining whether the
results in the final report were based on competent evidential matter requires that
the preparer of the final report have documentation summarizing the evidence.
DCAA documents the results using the DCAA Checklist and summarizes the
results for each FAO in an MFR. At the time DCAA briefed the ESC, however,
DCAA had not completed all of the 26 MFRs. Specifically, at the time of the
ESC briefing, DCAA had not:

    •   provided 8 (30.8 percent) draft MFRs to the FAOs for comment;

    •   received FAO comments on 16 (61.5 percent) draft MFRs; and

    •   signed out 17 (65.4 percent) final MFRs.

DCAA did not update the final report once the quality assurance review of
incurred cost audits was completed. For the eight draft MFRs that had not been
provided to the FAOs, the Chief of the DCAA headquarters Quality Assurance
Division explained that he was able to review the results “. . . in sufficient detail
to know that the overall results significant to Agency [DCAA] management
would not materially change as a result of completing our established written
reporting process.” In addition, the Chief of the DCAA headquarters Quality
Assurance Division stated that he reviewed each draft MFR to become
knowledgeable of the significant issues raised at each FAO. Also, both the
Assistant Director and Deputy Assistant Director of the Policy and Plans
Directorate were required to review the draft MFRs for the FAOs with a
satisfactory except for or a less than satisfactory rating before the draft MFR was
sent to the FAO for comment.

Results Reported to the Inspector General of the Department of Defense. At
the time that DCAA briefed the Inspector General of the Department of Defense
(IG DoD) in December 2001, DCAA had completed all but 3 (11.5 percent) of the
26 MFRs. However, the data that DCAA provided to the IG DoD were different
than the data provided to the ESC in the September 2001 report. DCAA indicated
which data changed. The following table shows numerical differences in the
DCAA-identified significant noncompliances between the final report that DCAA
presented to the ESC and the briefing that DCAA presented to the IG DoD.




                                      8
                                      DCAA Review Results

                                                                    Number of
                                                             Noncompliances Reported to
           Nature of Noncompliance*                             ESC          IG DoD

           Due Professional Care                                 11             12
           Quality Control                                       36             37
           Consider Control Risk                                 21             20
           Evidence                                              25             20
           Working Paper Documentation                           37             39
           Testing Compliance with Laws                          16             17
             and Regulations
           *
               For additional information, see Appendix C.


   The final report that DCAA presented to the ESC did not reflect the overall
   magnitude of the significant noncompliances. In addition, DCAA reported in the
   September 2001 final report that 3 (11.5 percent) of the 26 FAOs were operating
   at a less than a satisfactory level. However, in the December 2001 briefing to the
   IG DoD, DCAA reported that 4 (15.4 percent) of the 26 FAOs were operating at a
   less than satisfactory level. Had DCAA completed its work and finalized the
   MFRs before briefing the ESC, the results presented to the ESC would have been
   complete. DCAA did not present a revised final report to the ESC. Although the
   differences found after reporting to the ESC did not change the overall results or
   the proposed corrective actions for the review, having differences does point out a
   problem with reporting the results before the work is complete. If DCAA
   continues to issue final reports before completing the work, the reliability and the
   value of the final report could be impaired. As a result, the ESC would not have
   the best information for making decisions on corrective actions.

   Resolution of Final Report Issue. As the result of IG DoD concerns about
   presenting a final report before the quality assurance work is complete, DCAA
   determined that the final report on a quality assurance review would be the report
   provided to the IG DoD or any other external organization. DCAA has agreed
   that, should the results presented to the ESC be substantially different than the
   results presented to the IG DoD in the final report, then DCAA will provide a
   revised briefing to the ESC. DCAA is revising the draft policies and procedures
   to incorporate the agreement.


Summary
   Although DCAA is not required to issue quality assurance review reports that
   comply with GAS reporting standards, GAS reporting standards provide sound
   guidance on preparing an audit report so that the reader of a report can rely on the




                                              9
    information presented. GAS requires that reports include objective, scope and
    methodology, results (findings and conclusions), and recommendations. Scope
    and methodology should include an explanation of the:

        •   relationship between the universe and what was audited;

        •   evidence gathered and analysis techniques used;

        •   sample design and why that design was chosen when sampling
            significantly supports the findings; and

        •   work that was or was not performed, particularly when the work was
            limited because of constraints on time or resources.

    The results should include sufficient, competent, and relevant information that
    promote adequate understanding of the matters reported and provide convincing
    but fair presentations in proper perspective. If a DCAA final report on an internal
    quality assurance review does not accurately reflect the scope of the review and
    the review findings, then IG DoD will not be able to place maximum reliance on
    the DCAA internal quality assurance program by simply relying on the report
    with no retesting. For the external quality assurance reviewers or other users of
    DCAA audit services to rely on the DCAA internal quality assurance program,
    the information provided in the final report must be accurate and complete.


Management Comments on the Finding and Oversight
 Response
    Management Comments. DCAA expressed concern that in five places in the
    report, the IG DoD repetitively describes a single finding that DCAA believes is
    somewhat overstated and out of balance as presented.

    Oversight Response. The concern that DCAA expressed is related to how the
    IG DoD structures reports.


Recommendations, Management Comments, and Oversight
  Response
    We recommend that the Director, Defense Contract Audit Agency:

          1. Fully document and report on the scope of review of all quality
    assurance reviews.

    Management Comments. DCAA concurred, stating that for all future quality
    assurance reviews, the DCAA reviewers will identify the working paper sections
    including incurred cost subactivity assignments that were not included when
    evaluating an assignment. If no working papers were specifically identified as



                                        10
excluded from review, the IG DoD can and should assume that the DCAA
reviewers evaluated all working paper sections, and detailed working papers
within the sections, as part of the assignment review.

       2. Complete all work and finalize all Memorandums for Record on
the quality assurance reviews before providing the final report to the
Inspector General of the Department of Defense.

Management Comments. DCAA concurred, stating that DCAA inaccurately
described its presentation to the ESC as “the Agency's final report for that round
of PCIE-based QA [Quality Assurance] reviews.” in draft DCAA Instruction,
“DCAA Audit Quality Assurance Program.” DCAA stated that the description
was inaccurate because the DCAA briefing to the IG DoD would be after the
presentation to the ESC and, therefore, was the final report. In addition, DCAA
never intended to wait for all of the official reporting and documentation
requirements to be completed before presenting the significant noncompliances to
the ESC. The expectation was that DCAA would report interim review results
when the significance and timing of the findings and issues justified such
reporting. As soon as the IG DoD pointed out the above inaccuracy, DCAA
revised the draft instruction to specify that the DCAA briefing of quality
assurance review results to the IG DoD was to be considered the final report.

Oversight Response. The DCAA comments were responsive and should resolve
the issue of presenting the final report before completing the work.




                                    11
Appendix A. Scope and Methodology
   Review of DCAA Quality Assurance Program. An audit organization’s
   internal quality assurance program is an integral part of its overall management
   program. We based our review of the DCAA quality assurance program on the
   GAS standards relating to quality controls; the General Accounting Office
   GAO/OP-4.1.6, “An Audit Quality Control System: Essential Elements,” August
   1993; the PCIE “Guide for Conducting External Quality Control Reviews of the
   Audit Operations of Offices of Inspector General,” January 2002; DCAA strategic
   plan goals and objectives; and DCAA policies and procedures in force from
   October 1998 through August 2002. We reviewed the status of the DCAA quality
   assurance program, including improvements and enhancements that DCAA made
   as a result of IG DoD Report No. D-2002-6-001, “Defense Contract Audit
   Agency Quality Assurance Program,” December 6, 2001, and IG DoD Report
   No. D-2002-6-007, “Defense Contract Audit Agency Quality Assurance Review
   of Internal Control System Audits,” August 6, 2002. In addition, we reviewed the
   FY 2001 DCAA quality assurance review of incurred cost audits. Specifically,
   we reviewed the:

       •   FAO and assignment selection process;

       •   DCAA documentation files for all of the 26 FAOs visited;

       •   26 MFRs; and

       •   corrective actions that DCAA headquarters, the regions, and Field
           Detachment had either completed or proposed.

   We independently tested two FAOs (the Northrop Grumman Corporate Resident
   Office in California and the Northern Ohio Branch Office) to determine whether
   the systemic noncompliances DCAA identified existed at FAOs that DCAA did
   not review. In addition, we determined whether other systemic issues existed that
   DCAA did not identify in the internal quality assurance review. Also, we
   discussed the quality assurance review process and the results of our review with
   DCAA officials to help us determine how much reliance we could place on the
   process when conducting our oversight review. Further, we reviewed briefing
   charts that the DCAA headquarters Quality Assurance Division presented to the
   ESC and meeting minutes and action items that resulted from ESC meetings and
   decisions relating to the DCAA quality assurance program and the quality
   assurance review of incurred cost audits. We conducted this oversight review
   from April 2002 through October 2002 in accordance with IG DoD standards.

   IG DoD Oversight of DCAA. Under section 8(c)(6), title 5, United States Code,
   Appendix 3, the Inspector General Act of 1978, as amended, the IG DoD is
   responsible for monitoring and evaluating adherence of DoD auditors to internal
   audit, contract audit, and internal review principles, policies, and procedures. The
   office within the IG DoD responsible for conducting independent oversight
   reviews of DCAA is the Office of the Assistant Inspector General for Inspections
   and Policy, Deputy Assistant Inspector General for Audit Policy and Oversight.
   As part of that responsibility, Audit Policy and Oversight evaluates the quality
   assurance reviews that the DCAA headquarters Quality Assurance Division and


                                       12
the Regional Quality Assurance Divisions (RQAs) perform. Audit Policy and
Oversight uses the PCIE Guide as a tool when conducting oversight reviews of
the quality assurance reviews.

Evaluation of Results of the FY 2001 Quality Assurance Review of Incurred
Cost Audits. To evaluate the status of the DCAA quality assurance program, we
reviewed DCAA policies and procedures and interviewed DCAA headquarters
quality assurance staff to determine the procedures established to conduct quality
assurance reviews as well as the improvements and enhancements DCAA
implemented as a result of IG DoD Report No. D-2002-6-001 and IG DoD Report
No. D-2002-6-007. To evaluate the results of the FY 2001 quality assurance
review of incurred cost audits, we reviewed the:

    •   ESC briefing charts and meeting minutes;

    •   MFRs;

    •   completed DCAA Checklists;

    •   documentation supporting significant deficiencies that DCAA found; and

    •   corrective actions DCAA completed or proposed.

We independently tested the DCAA results by visiting 2 (2.5 percent) of the
79 FAOs that existed as of June 2002. The two FAOs we tested had not been
reviewed by DCAA during the first 3-year cycle of quality assurance reviews. At
the 2 FAOs, we reviewed 2 corporate office annual incurred cost audit summary
assignments and 14 (51.9 percent) of the 27 associated subactivity assignments.
In addition, we reviewed five annual incurred cost audit summary assignments at
nonmajor contractors. When reviewing the assignments, we used the same
DCAA Checklist that DCAA used when they conducted the quality assurance
review. For the review of the corporate office assignments, we prepared a
checklist for each of the 14 subactivity assignments that we reviewed instead of
paralleling the DCAA methodology by only preparing a checklist for the 2 annual
incurred cost audit summary assignments.

Use of Computer-Processed Data. We relied on computer-processed data from
the DCAA Management Information System. Specifically, we used information
from the “Analysis of World” report for FY 2000 as an aid in our selection of
FAOs to visit and assignments to review. In addition, for each of the 97 annual
incurred cost audit summary assignments, DCAA provided data from the DCAA
Management Information System summarizing the hours expended completing
the assignments, dollars examined, questioned costs, number of associated
subactivity assignments, and hours expended completing the subactivity
assignments. We did not perform tests of system general and application controls
to confirm the reliability of the data because errors would not have significantly
affected our selection of FAOs or assignments or our conclusions on planning for
and documenting the review of subactivity assignments. Therefore, not
evaluating the controls did not affect the results of the audit.




                                    13
Prior Coverage

IG DoD
    IG DoD Report No. D-2002-6-007, “Defense Contract Audit Agency Quality
    Assurance Review of Internal Control System Audits,” August 6, 2002

    IG DoD Report No. D-2002-6-005, “Defense Contract Audit Agency Regional
    Quality Assurance Review of the Incurred Cost Sampling Initiative,” April 16,
    2002

    IG DoD Report No. D-2002-6-001, “Defense Contract Audit Agency Quality
    Assurance Program,” December 6, 2001

    IG DoD Report No. D-2000-6-010, “External Quality Control Review of the
    Defense Contract Audit Agency,” September 27, 2000




                                       14
Appendix B. Structure of DCAA Quality
            Assurance Program and Quality
            Control System

Policies on Quality Control Systems and Quality Assurance
  Reviews
     GAS. The GAS are standards for audits that are performed on Government
     organizations, programs, activities, and functions. The standards also apply to
     audits of Government assistance that contractors, nonprofit organizations, and
     other non-Government organizations receive. GAS 3.31 requires that, “Each
     audit organization conducting audits in accordance with these standards should
     have an appropriate internal quality control system in place.” In addition, GAS
     requires that an organization’s internal quality control system provides reasonable
     assurance that the organization has adopted and follows applicable auditing
     standards and has established and follows adequate audit policies and procedures.
     GAS states that the nature and extent of an organization’s internal quality control
     system is dependent on factors such as size, the degree of operating autonomy
     among offices and personnel, the nature of the work, organizational structure, and
     appropriate cost/benefit considerations. Therefore, the internal quality control
     systems organizations establish will vary, as will the extent of the documentation.

     PCIE Guide. The PCIE Guide reiterates the guidance in GAS and provides
     additional guidance on the internal quality control system as well as guidance for
     conducting quality assurance reviews. The PCIE Guide states that an
     organization’s internal quality control policies and procedures encompass, at a
     minimum, the elements of staff qualifications, independence, audit performance,
     and internal review. In addition, the PCIE Guide outlines the characteristics of a
     quality assurance review. Also, the PCIE Guide includes a “Checklist for
     Assessment of Internal Quality Assurance Program [PCIE Appendix C],” which
     can be used as a tool to evaluate an organization’s quality assurance program.

     General Accounting Office Guide. The General Accounting Office
     GAO/OP-4.1.6, “An Audit Quality Control System: Essential Elements”
     (General Accounting Office Guide), August 1993, provides guidance that Federal
     organizations can use to design or improve their internal quality control systems.
     The General Accounting Office Guide states that a quality control system should
     define principles, policies, and procedures that will achieve the consistent quality
     of work an organization expects. In addition, an appropriate quality control
     system identifies those factors that could jeopardize the quality of an audit and
     establishes processes or procedures that promptly identify and correct problems
     before they occur.




                                          15
DCAA Internal Quality Control System
           The DCAA internal quality control system is implemented at all levels of the
           organization and is multifunctional, covering elements of vulnerability
           assessment, internal control review, external audit followup,12 audit quality
           review, and management improvement efforts. As of September 30, 2002, DCAA
           is organizationally divided into a headquarters, 5 regions, Field Detachment, and
           80 FAOs. DCAA considers all organizational layers to be part of its internal
           quality control system.

           DCAA-Wide Quality Control System. The DCAA-wide quality control system
           is defined in the CAM and in DCAA regulations and instructions. DCAA-wide
           quality controls include use of standard audit programs, standard audit report
           formats, and standard checklists for reviewing audit reports; fact-finding visits by
           DCAA headquarters program managers who use tools such as centrally directed
           surveys and internal checklists; headquarters desk reviews; onsite reviews of
           internal systems by DCAA specialists such as industrial engineers; and reviews
           by peers outside the organization being reviewed. In addition, the DCAA quality
           assurance program is an integral part of the quality control system.

           Regional and Field Detachment Quality Control Systems. Regional quality
           control systems implemented by the regional directors and managed by the
           RQAs, including the Field Detachment Quality Assurance Division, are an
           integral part of the DCAA-wide quality control system. Regional policies and
           procedures set forth quality controls that include delegation of authority;
           separation of duties; accountability of resources; recording, documenting, and
           resolving audit findings; pre-issuance reviews of sensitive or significant audit
           reports by regional audit managers; post-audit quality reviews by the regional
           audit manager; and monthly post-issuance review of audit reports. The RQAs
           also perform compliance reviews as requested by regional directors.

           FAO Quality Control System. Within each region, DCAA has between 10 and
           16 FAOs. The FAOs are responsible for implementing a sound quality control
           system based on headquarters and regional guidance. Peer review processes are
           an integral part of the FAO-level quality control system. FAO quality controls
           include mandatory pre-issuance review of audits by supervisory auditors and
           pre-issuance reviews of sensitive or significant audits by FAO managers. The
           results of peer reviews are used to identify process improvements within FAOs
           and are forwarded to the region and headquarters for identifying trends
           throughout DCAA. FAOs may institute other quality control procedures, such as
           participatory work teams and pre-issuance review of audit reports.




12
     External audit followup includes following up on findings and recommendations in General Accounting
     Office and IG DoD reports.



                                                     16
DCAA Quality Assurance Program
    MRD 98-P-147(R), “Establishment of Quality Assurance Division,” October 23,
    1998, established a Quality Assurance Division at DCAA headquarters and in
    each of the five regions and Field Detachment. The headquarters, regional, and
    Field Detachment Quality Assurance Divisions are responsible for developing
    and executing an agency-wide program to provide reasonable assurance that
    DCAA has adopted and follows applicable auditing standards and has established
    and follows adequate auditing policies and procedures. Additional functions
    include assessing the need for new or revised guidance, supporting external
    quality control reviews, accompanying external auditors on field visits, serving on
    process action teams, assisting in responding to inquiries, and identifying
    “best-in-class” processes for use throughout DCAA.

    Executive Steering Committee. The ESC is responsible for providing overall
    management and direction for the DCAA total quality management program. In
    addition, the ESC is responsible for establishing the DCAA vision and strategic
    goals; identifying quality improvement projects; evaluating quality improvement
    projects suggested by others; approving or disapproving DCAA-wide process
    action teams; and maintaining active communication and coordination with the
    quality management boards regarding their process action team activities and
    recommendations. Committee members include the Director, Deputy Director,
    assistant directors of the headquarters components, directors of the five regions
    and Field Detachment, and General Counsel. The ESC meets quarterly and is
    briefed on issues such as the strategic plan, advanced degrees and certifications,
    procurement plans, and the DCAA quality assurance program. If necessary, the
    ESC establishes action items for tasks to be completed or information to be
    provided. The Executive Officer maintains a listing of action items for the
    Director, DCAA.

    Headquarters Quality Assurance Division. The DCAA headquarters Quality
    Assurance Division performs formal quality assurance reviews based on the PCIE
    Guide and other quality assurance-related reviews throughout DCAA. When
    conducting the reviews, the Quality Assurance Division assesses compliance with
    applicable auditing standards and audit policies and procedures, the need for
    enhanced or new audit policy guidance, and best practices for use throughout the
    agency.

    Regional Quality Assurance Divisions. The RQAs, including Field
    Detachment, assist the DCAA headquarters Quality Assurance Division in
    performing quality assurance reviews and other quality assurance projects
    throughout the agency. At the direction of respective regional directors, the
    RQAs also perform regional quality assurance reviews and projects to assess
    compliance with applicable policies and procedures, the need for enhanced or
    new audit guidance, and best practices for regional use. In addition, the RQAs
    perform special reviews as required by the regional directors. When performing
    regional quality assurance reviews and special reviews, the RQA chiefs report
    directly to the directors of their respective regions. When performing
    agency-wide reviews under the direction of the headquarters Quality Assurance
    Division, the RQA staff assigned to the review report indirectly to the chief of the
    headquarters Quality Assurance Division.


                                         17
            DCAA Quality Assurance Reviews. Beginning in FY 1999, DCAA established
            a 3-year cycle for conducting quality assurance reviews. DCAA determined that
            its workload fell into four major categories—forward pricing assignments,
            internal control reviews, incurred cost audits, and all other audits.13 DCAA
            decided to conduct separate quality assurance reviews for each of the major audit
            categories. DCAA completed all four reviews and briefed the ESC on the last one
            in June 2002.


DCAA Quality Assurance Program Review Process
            The PCIE Guide describes the characteristics that an organization’s quality
            assurance program should integrate into any review of its quality control system.
            Those characteristics include formal quality assurance review procedures,
            adequate staffing, independence, sufficient evidence, thorough scope of review,
            written results, written responses, and an effective followup process. In IG DoD
            Report No. D-2002-6-001, we discussed DCAA implementation of the
            characteristics during the DCAA quality assurance review of forward pricing
            assignments and determined that the DCAA methodology for preparing written
            results and written responses met the intent of the PCIE Guide. DCAA used the
            same methodology during the quality assurance review of incurred cost audits and
            continues to meet the intent of the PCIE Guide for the characteristics of written
            responses. However, as discussed in the finding, DCAA needs to improve its
            process for preparing written results to meet the intent of the PCIE Guide. For the
            characteristics of formal quality assurance review procedures, staffing,
            independent review, evidence, followup, and scope of headquarters-led quality
            assurance reviews; DCAA has either taken corrective action or plans to take
            corrective action to improve or enhance the characteristic.

            Formal Quality Assurance Review Procedures. DCAA completed four
            internal quality assurance reviews without preparing formal policies and
            procedures for conducting the reviews. DCAA needs to develop formal policies
            and procedures so that an external reviewer can evaluate the adequacy of the
            policies and procedures as part of the overall oversight review of the DCAA
            quality assurance program. DCAA planned to issue the instruction by
            September 30, 2001; however, DCAA revised the milestone date to February 28,
            2002. In March 2002, DCAA revised the milestone date to May 30, 2002. In
            July 2002, DCAA again revised the milestone date to September 30, 2002. In
            October 2002, DCAA again revised the milestone date to December 31, 2002.

            Staffing. DCAA established the headquarters Quality Assurance Division
            primarily to develop and execute an agency-wide quality assurance program.
            DCAA has subsequently added responsibilities, such as providing assistance in
            preparing the DCAA FY 2000 financial statements. To ensure that the quality
            assurance program reviews are accomplished during each 3-year cycle, DCAA
            agreed to continue to monitor the work assigned to the headquarters Quality
            Assurance Division.


13
     Examples of other audits include defective pricing audits, progress payment audits, operations audits, and
     termination audits.



                                                       18
Independent Review. The PCIE Guide recommends that the review team leader
report to an individual or a level within the organization that will ensure
independence and objectivity of the performance of quality assurance reviews.
However, when DCAA established the process for assigning auditors to the
quality assurance reviews, DCAA decided that the Field Detachment Quality
Assurance Division would conduct the quality assurance review of Field
Detachment audits. DCAA decided not to independently assess Field Detachment
based on of workload, security considerations, and the fact that DCAA considers
the Field Detachment Quality Assurance Division independent because it is
separate from Field Detachment audit operations. However, the Field
Detachment quality assurance staff is located at Field Detachment FAOs
throughout the continental United States. The quality assurance staff is not
physically separate from Field Detachment audit operations. In response to
IG DoD Report No. D-2002-6-001, DCAA modified the quality assurance review
process by requiring the Deputy Director, DCAA to select Field Detachment
FAOs for review, review and sign draft and final MFRs, and review working
papers if necessary. While involving the Deputy Director, DCAA in the review
of Field Detachment FAOs does not result in complete independence, involving
the Deputy Director, DCAA is a reasonable compromise that meets the intent of
the recommendation in IG DoD Report No. D-2002-6-001, given the nature of
Field Detachment work.

Evidence. The PCIE Guide recommends that competent evidential matter be
gathered and, where applicable, sufficient testing be accomplished to determine
whether the organization is in compliance with applicable auditing standards,
policies, and procedures. DCAA developed an understandable and methodical
process for selecting which FAOs and incurred cost audit assignments to review.
However, DCAA did not develop an objective methodology for selecting
subactivity assignments for review and did not document which subactivity
assignments were actually reviewed in the MFRs (see Finding). DCAA
documented the results of the quality assurance review of incurred cost audits by
completing a DCAA Checklist and Supplemental Checklist for each of the
97 annual incurred cost audit summary assignments reviewed, preparing exit
conference notes, and writing an MFR summarizing the results of the review for
each of the 26 FAOs visited. We conducted independent testing at two FAOs and
concluded that the same type of systemic noncompliances existed and that the
DCAA results were valid. In addition, our independent review did not identify
any systemic issues not previously identified by DCAA. DCAA completed the
quality assurance review of incurred cost audits and briefed the ESC in
September 2001 before we issued IG DoD Report No. D-2002-6-001 in
December 2001; therefore, DCAA could not have implemented any of the
recommendations during the review of incurred cost audits. However, DCAA
took action to implement the recommendations related to documentation as well
as cross-referencing MFRs once IG DoD Report No. D-2002-6-001 was issued.




                                   19
                Documentation Supporting the DCAA Checklists. The DCAA quality
           assurance staff improved their documentation of work performed and conclusions
           reached during the review. In response to IG DoD Report No. D-2002-6-001,
           DCAA modified the DCAA Checklist14 used during the quality assurance review
           of all other audits. Specifically, DCAA:

                •    added question 5.3.b, which requires the DCAA reviewer to determine
                     whether any auditor in the FAO documented the reliability of a
                     computer-based date if the auditor performing the audit under review had
                     not;

                •    modified question 6.1 and renumbered it as 6.1.a, which requires the
                     DCAA reviewer to determine whether the auditor documented an
                     understanding of the contractor’s internal controls;

                •    added question 6.1.b, which requires the DCAA reviewer to determine
                     whether any auditor in the FAO documented an understanding of the
                     contractor’s internal controls on an Internal Control Audit Planning
                     Summary, an Internal Control Questionnaire, or some other procedure if
                     the auditor performing the audit under review had not; and

                •    separated question 4.2 on supervision into five questions to more
                     accurately assess supervisory involvement during an audit.

           In addition, our review of DCAA Checklists prepared at two pilot sites for the
           review of all other audits indicated that DCAA is providing more detailed
           documentation for each answer on the DCAA Checklist. Specifically, the DCAA
           reviewers are providing either an explanation or a working paper
           referencesometimes bothfor each “yes” and “no” answer and, when
           necessary, the DCAA reviewers are providing explanations for some of the “not
           applicable” answers.

                   Cross-Referencing the Quality Assurance Review Reports. The
           DCAA quality assurance staff improved the cross-referencing of the MFRs to the
           supporting quality assurance documentation because of the improvement in
           documenting the answers to the DCAA Checklist questions. DCAA wrote an
           MFR for each of the 26 FAOs reviewed. The MFRs summarize the major
           findings of the quality assurance reviews at the FAOs and include an enclosure
           that summarizes the DCAA Checklist answers by reviewed assignment. Each
           MFR identifies the incurred cost audit discussed and the DCAA Checklist
           question identifying the noncompliance. Because of the changes that DCAA
           made to the DCAA Checklist questions and because the DCAA reviewers are
           providing explanations and working paper references as support for answers, we
           have a clear audit trail from the MFRs to the DCAA Checklist answers to the
           auditor working papers.

           Followup Procedures. The PCIE Guide recommends that procedures be
           established for resolution and followup of recommended corrective action. A
           good followup system should provide information on what improvements were

14
     DCAA considers the DCAA Checklist to be a living document; therefore, changes are made as needed.



                                                    20
            made as a result of the work and whether the improvements achieved the desired
            result. Determining actions that were taken on recommendations requires active
            monitoring of the status of recommendations.

            DCAA has two separate followup processes for monitoring the status of actions
            taken as a result of issues found during the headquarters-led quality assurance
            reviews. If the ESC adopts a corrective action and assigns the action to a
            headquarters element, that component is responsible for followup. The ESC and
            the headquarters Quality Assurance Division are responsible for monitoring the
            followup. If the ESC adopts a corrective action and assigns it to the regions for
            implementation or followup, DCAA relies on the regional directors to
            independently ensure that corrective action is taken. The headquarters Quality
            Assurance Division performs no additional followup action until the next quality
            assurance review of the same type audit unless otherwise specifically directed by
            DCAA management. However, beginning with the quality assurance review of
            incurred cost audits, the ESC is requiring the regions to independently follow up
            on each other’s corrective action to ensure that the proposed corrective actions
            were implemented.

            Scope of Headquarters-Led Quality Assurance Reviews. We raised concerns
            in IG DoD Report No. D-2002-6-001 about the scope of the DCAA
            headquarters-led quality assurance reviews related to the review of FAOs,
            assessment of due professional care, review of qualifications and independence,
            and assessment of the DCAA quality control system. DCAA took corrective
            action to improve the characteristics.

                    Review of FAOs. All of the FAOs issue audit reports; however, DCAA
            never planned to ensure the review of every FAO in a given 3-year cycle or
            planned to include the two overseas FAOs15 in the headquarters-led quality
            assurance reviews. DCAA notified us on March 30, 2001, that they would begin
            to include both of the overseas FAOs in the universe of offices to be potentially
            selected for future reviews. DCAA stated that, under the DCAA methodology for
            conducting the PCIE-based reviews and given the DCAA revised position relating
            to the two overseas offices, every FAO will likely be covered during the first and
            subsequent review cycles. DCAA included the European Branch Office in the
            internal quality assurance review of all other assignments. However, DCAA did
            not include the Northern Ohio Branch Office, the Northrop Grumman Corporate
            Resident Office, or the Pacific Branch Office in any headquarters-led review
            conducted during the first 3-year cycle.

                    Assessment of Due Professional Care. The question on the DCAA
            Checklists that DCAA used for the internal quality assurance reviews of forward
            pricing assignments and internal control system audits did not adequately address
            compliance with due professional care. DCAA took corrective action by
            modifying the March 12, 2001, version of the DCAA Checklist used during the
            internal quality assurance review of incurred cost audits to include the question,
            “Did the auditors exercise due professional care in performing the audit?” to be
            used to assess compliance with due professional care.


15
     The European Branch Office is in Germany with suboffices in Saudi Arabia and Israel. The Pacific
     Branch Office is in Japan with suboffices in Hawaii and Korea.



                                                     21
        Qualifications and Independence. The quality assurance review process
that DCAA initially developed included plans to review compliance with the
general standards of qualifications and independence. The plans did not include
testing at the FAO level. Subsequent to the start of the 3-year cycle, DCAA
decided to postpone its review of qualifications—specifically continuing
professional education—until FY 2002 because DCAA was in the process of
revising guidance on continuing professional education requirements. DCAA
completed the review of qualifications and independence and in June 2002 briefed
the ESC.

        DCAA Quality Control System. The DCAA quality assurance reviews
of forward pricing assignments and internal control system audits did not fully
consider regional and FAO quality control policies and procedures. To fully
assess the adequacy of the DCAA quality control system as described in the
CAM, DCAA should have tested compliance with policies and procedures issued
by the regions and the FAOs in addition to DCAA-wide policies and procedures.
However, when completing the DCAA Checklist, the reviewers did not indicate
that they considered anything other than DCAA-wide quality control policies and
procedures. DCAA took corrective action by adding the question, “Were the
quality control procedures, forms, and checklists required by Regional/FAO
policy appropriately completed/complied with?” to the January 2001 version of
the DCAA Checklist used to review incurred cost audits, the third of four types of
audits that DCAA is including in the quality assurance reviews.




                                    22
Appendix C. Results of DCAA Quality Assurance
            Review of Incurred Cost Audits
   Significant Noncompliances. The DCAA quality assurance review of incurred
   cost audits identified significant noncompliances with GAS for which DCAA has
   either implemented or initiated corrective action. In the briefing presented to the
   IG DoD in December 2001, DCAA discussed significant noncompliances related
   to the following GAS standards.

           Due Professional Care. Auditors on 12 (12.4 percent) of the 97 audits
   did not meet the due professional care standard.

          Quality Controls. Auditors on 37 (38.1 percent) of the 97 audits did not
   appropriately complete key procedures and forms.

           Planning. Auditors on 31 (32 percent) of the 97 audits did not coordinate
   with report users to document their needs. In addition, auditors on 20
   (20.6 percent) of the 97 audits did not adequately document how the assessed risk
   affected the scope of work.

          Supervision. On 20 (20.6 percent) of the 97 audits, supervisory
   involvement was not appropriate and timely to provide for adequate planning, for
   supervisors to be kept informed of significant problems, and for supervisors to
   ensure that the work was adequately performed in accordance with the audit
   program and the working papers support the conclusions in the audit report.

           Evidence. Auditors on 20 (20.6 percent) of the 97 audits did not obtain
   sufficient, competent, and relevant evidence to support audit report findings,
   judgments, and conclusions. In addition, auditors on 20 (20.6 percent) of the 97
   audits did not include the audit objectives or scope and methodology (including
   any sampling criteria used) or adequately document the work performed in the
   working papers.

           Compliance with Laws and Regulations. Auditors on 39 (40.2 percent)
   of the 97 audits did not assess the risk that noncompliances or illegal acts
   significant to the audit objective could have occurred.

           Reporting. The reports for 11 (11.3 percent) of the 97 audits did not
   present information in a manner that was accurate, fair, complete, convincing,
   objective, and clear. In addition, the reports for 14 (14.4 percent) of the 97 audits
   did not include a listing of all auditable contracts and subcontracts for the fiscal
   year under review and designate the contracts to which advance agreements,
   special provisions or the penalty clause applied.

   In conducting our retesting and independent testing, we reached the same general
   conclusions that DCAA reached when they performed the quality assurance
   review. Our concern about adequately documenting the scope of the review,
   discussed in the finding, does not adversely impact the nature of the significant
   noncompliances DCAA identified and the IG DoD confirmed.



                                        23
Factors Contributing to the Significant Noncompliances. DCAA determined
that a number of factors contributed to the occurrence of the significant
noncompliances. The factors included not:

    •   using the most current standard audit program;

    •   coordinating adequately with Field Detachment;

    •   preparing an adequate and complete risk assessment;

    •   preparing an adequate and complete transaction testing plan;

    •   using special purpose standard audit programs when appropriate;

    •   documenting the accomplishment of mandatory annual audit
        requirements; and

    •   including relevant control risk and accounting system information in
        audit reports.

The factors contributing to the significant noncompliance are related primarily to
either auditors not following DCAA policies and procedures or to inadequate
DCAA policies and procedures.

Corrective Actions. DCAA headquarters, the regions, Field Detachment, and
FAOs implemented or initiated corrective action to prevent the occurrence of the
significant noncompliances in future audits.

        DCAA Headquarters. DCAA headquarters revised the CAM and
modified standard audit programs in the Audit Planning and Performance System
to include audit steps on coordinating with the requester of an audit, assessing the
risk of fraud, and reviewing executive compensation. In addition, DCAA adopted
a strategic plan objective to develop and implement an incentive program
designed to motivate, recognize, and reward excellence in supervision. Also,
DCAA headquarters established a process action team that developed new
standard working papers for documenting risk assessments for incurred cost
audits at major contractors and at nonmajor contractors. On August 8, 2002,
DCAA provided training to the IG DoD on use of the new standard working
papers for risk assessments.

        Regions and Field Detachment. The regions and Field Detachment
distributed the systemic findings and guidance reminders. In addition, the regions
and Field Detachment conducted training detailing the significant
noncompliances and what auditors could do to prevent recurrence in the future.
Also, to ensure that the significant noncompliances were corrected once
corrective actions were implemented, the regions and Field Detachment required
the regional audit managers and detachment audit managers to review incurred
cost audits.

        FAOs. Each FAO was required to implement corrective actions to resolve
the significant noncompliances that the DCAA reviewers found at the FAO. The
regions are required to verify that the FAOs took corrective action and that the


                                     24
corrective action resolved the significant noncompliances. DCAA is requiring the
regions to prepare close out reports on the implementation of corrective actions at
the FAOs within 60 days of completion or verification of the last corrective
action. The regions expect to complete the close out reports between
November 30, 2002, and February 28, 2003.

Timely implementation of corrective actions and assessing whether the corrective
action resolved the significant noncompliances should help ensure that the DCAA
quality assurance program is effective.




                                    25
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer

Other Defense Organization
Director, Defense Contract Audit Agency




                                          26
Defense Contract Audit Agency
Comments




                     27
28
29
Team Members
The Deputy Assistant Inspector General for Audit Policy and Oversight, Office of
the Assistant Inspector General for Inspections and Policy, DoD, prepared this
report. Personnel of the Office of the Inspector General, DoD, who contributed to
the report are listed below.

Wayne C. Berry
Diane H. Stetler
Catherine M. Schneiter
Edward M. Van Why
Lois J. Wozniak
Donna Roberts
Sharon Carvalho
Krista S.Gordon
